<html>
<title> - CURRENT FEDERAL RAILROAD ADMINISTRATION SAFETY INITIATIVES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
       CURRENT FEDERAL RAILROAD ADMINISTRATION SAFETY INITIATIVES

=======================================================================

                                (109-84)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                               RAILROADS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
30-654                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)



                       SUBCOMMITTEE ON RAILROADS

                  STEVEN C. LaTOURETTE, Ohio, Chairman

THOMAS E. PETRI, Wisconsin           CORRINE BROWN, Florida
SHERWOOD L. BOEHLERT, New York       NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida                JERROLD NADLER, New York
SPENCER BACHUS, Alabama              BOB FILNER, California
JERRY MORAN, Kansas                  ELIJAH E. CUMMINGS, Maryland
GARY G. MILLER, California           EARL BLUMENAUER, Oregon
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
TODD RUSSELL PLATTS, Pennsylvania    JULIA CARSON, Indiana
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JON PORTER, Nevada                   JERRY F. COSTELLO, Illinois
TOM OSBORNE, Nebraska                EDDIE BERNICE JOHNSON, Texas
MICHAEL E. SODREL, Indiana           JOHN BARROW, Georgia
LYNN A. WESTMORELND, Georgia, Vice-  JAMES L. OBERSTAR, Minnesota
Chair                                  (ex officio)
DON YOUNG, Alaska
  (ex officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Boardman, Hon. Joseph, Administrator, Federal Railroad 
  Administration.................................................     3
 Hamberger, Edward, President and Chief Executive Officer, 
  Association of American Railroads..............................     3
 Stem, James A., Alternate National Legislative Director, United 
  Transportation Union...........................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    42
Costello, Hon. Jerry F., of Illinois.............................    47
Cummings, Hon. Elijah E., of Maryland............................    49
Oberstar, Hon. James L., of Minnesota............................    71

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Boardman, Hon. Joseph...........................................    30
 Hamberger, Edward...............................................    54
 Stem, James A...................................................    74


       CURRENT FEDERAL RAILROAD ADMINISTRATION SAFETY INITIATIVES

                              ----------                              


                         Tuesday, June 27, 2006

        House of Representatives, Subcommittee on 
            Railroads, Committee on Transportation and 
            Infrastructure, Washington, D.C.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2173, Rayburn House Office Building, Hon. Steven C. 
LaTourette [Chairman of the committee] presiding.
    Mr. LaTourette. Good morning. The Subcommittee on Railroads 
will come to order in the Subcommittee hearing this morning. I 
want to welcome all of the members, our witnesses to today's 
hearing on current FRA safety initiatives.
    I have been advised that our distinguished Ranking Member 
is stuck in traffic, and so we again get Mr. Barrow to be the 
qualified pinch hitter, and we are happy to have him.
    According to the Federal Railroad Administration, 70 
percent of train derailments are caused by either defective 
track conditions or human factors such as fatigue.
    The FRA, along with rail management and rail labor, have 
been working to reduce the number of derailments by the 
introduction of new operating rules, implementation of new 
inspection procedures, and the development of new technologies.
    For example, most railroad track is still inspected by 
track walkers or employees driving slowly down the track in hi-
rail vehicles. This era is coming to an end, however, as the 
FRA deploys automated track inspection vehicles capable of 
inspecting hundreds of miles of track per day.
    Other new technologies, such as positive train control, 
have the potential to eliminate head-on collisions and 
derailments caused by misaligned switches.
    And the rail vehicles themselves are becoming safer due to 
extensive collision testing by the FRA, the Volpe Center, and 
the Transportation Technology Center in Colorado.
    Unfortunately, all of these new technologies will have only 
a marginal impact on one critical aspect of rail safety.
    The sad fact is that most railroad fatalities involve grade 
crossing collisions or trespassers on the right-of-way.
    This is doubly unfortunate because railroad employees work 
so hard to follow the rules. Railroad employees are given 
extensive safety training, they are required to comply with 
numerous company operating rules, complex Federal regulations, 
and mandatory drug testing.
    But even the most conscientious railroad employee cannot 
rewrite the laws of physics. Trains can take over one mile to 
stop. A locomotive cannot steer out of the way to avoid an 
errant pedestrian or drunken motorist. And any engineer will 
tell you that hitting the emergency brake creates the risk of a 
derailment.
    This Subcommittee takes all this very seriously and hopes 
that today's hearing serves as an encouragement to all those 
men and women who strive day by day to make our railroads safe 
and safer.
    Before yielding to Mr. Barrow, just one brief housekeeping 
item. Ask unanimous consent to allow all members 30 days to 
revise and extend their remarks, and to permit the submission 
of additional statements and extraneous materials by our 
witnesses. Without objection, so ordered.
    And it is now my pleasure to yield to Mr. Barrow for his 
opening remarks.
    Mr. Barrow. Thank you, Mr. Chairman. Your housekeeping 
matter said all that I wanted to say this morning, because I 
want to hear from the witnesses. I want to make sure that 
Ranking Member Corrine Brown and other members have a certain 
amount of time to submit their remarks, and I thank you for the 
unanimous consent on that.
    Now I would like to hear from the witnesses.
    Mr. LaTourette. Well, I thank you very much for the clarity 
and brevity of your statement.
    We have one panel today, and all of the witnesses are no 
strangers to the Subcommittee. We are going to welcome the 
Honorable Joseph Boardman, who is the Administrator of the 
Federal Railroad Administration; Mr. Edward Hamberger, who is 
the President and Chief Executive Officer of the Association of 
American Railroads; and Mr. James A. Stem, who is the Alternate 
National Legislative Director for the United Transportation 
Union.
    I want to thank all of you for coming this morning. We look 
forward to hearing from you and--oh, Coach, do you have an 
opening remark before we begin?
    Mr. Osborne. Not much of a remark. I just have been hearing 
a lot from people in the railroad industry. Conductors are in 
danger of being phased out, going from two-man crews to one. 
And this may not be particularly germane to this hearing, but 
any thoughts you have on that issue would be of interest to me, 
because it is something that seems to be on the front burner 
with at least a couple of railroads.
    So that is all I have, Mr. Chairman, and thank you for 
giving me that opportunity.
    Mr. LaTourette. Well, I am sorry I didn't see you before. 
And, Congressman Osborne, I appreciate your observations and 
appreciate your coming. The Subcommittee does plan to have an 
additional hearing on--and you are certainly free to ask any 
questions during the course of this hearing, but we plan to 
have an additional hearing, probably in July, on the human 
factor aspect of that and dealing with such things as circadian 
rhythms and things of that nature. And I know that we can 
explore that fully then, and you are free to explore it now, 
but thank you for your observations.
    Again, we welcome all of our witnesses this morning and, 
Administrator Boardman, we look forward to hearing from you.

  TESTIMONY OF THE HONORABLE JOSEPH BOARDMAN, ADMINISTRATOR, 
 FEDERAL RAILROAD ADMINISTRATION; EDWARD HAMBERGER, PRESIDENT 
AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF AMERICAN RAILROADS; 
  AND JAMES A. STEM, ALTERNATE NATIONAL LEGISLATIVE DIRECTOR, 
                  UNITED TRANSPORTATION UNION

    Mr. Boardman. Thank you, Mr. Chairman and Ranking Member 
substitute for Brown, Mr. Barrow, I am glad to be here this 
morning; all the members.
    I am going to do a presentation this morning with the video 
capabilities that your room has, and I appreciate that 
opportunity.
    Go ahead.
    The two things that we at FRA really do as our basic goals 
are to prevent accidents and, if we can't prevent those 
accidents, we mitigate those accidents.
    Throughout the FRA, we have eight regions across the 
Country. We have 369 safety inspectors nationwide and another 
298 support and analysis staff to help all across the United 
States. In addition to that, we have 160 inspectors that come 
from 30 State programs that we work hand-in-hand across the 
Country to improve railroad safety.
    The railroad network across the Country you can take a 
quick look at, and I think really what you can see there is 
that since 70 percent of the U.S. population lives east of the 
Mississippi River, that is where you see more and more of the 
lines that provide the service to the United States.
    But what I really came to talk about today was a National 
Rail Safety Action Plan. And it is based on targeting the most 
frequent, high-risk causes of accidents; focusing FRA oversight 
and inspection resources more precisely; and accelerating 
research efforts for the potential to mitigate the largest 
risk; to reduce train accidents caused by human factors, which 
you talked about a minute ago, Mr. Chairman, but also to 
improve track safety; enhanced hazardous material safety; and 
focus FRA resources on the greatest areas of concern; and 
improve highway-rail grade crossing safety, where you correctly 
pointed out this morning most of our fatalities between that 
and trespass occur.
    When we look at--and we have seen it change a little bit in 
this pie chart. It used to be 37 percent human factors. And if 
you look at testimony I think at the last hearing, you would 
hear me say that 37 percent of the accidents were caused by 
human factors and 34 percent of it by track. That has changed 
and shifted, and seems to continue to shift more toward the 
human factors, where we have 38 percent of them now, based on 
the most recent data analysis, and 33 percent on track.
    But the important thing to understand in looking at what is 
happening with delivering results for safety is a continuing 
reduction in the number of fatalities--and that is all 
fatalities; that is the grade crossing fatalities, that is the 
trespass fatalities, employee fatalities, and others--continue 
to head in the overall trending right direction, you will see 
bumps in that line, and those bumps in the line mean that from 
one year to the next--of if you look at the line in a shorter 
time span, you are going to see differences. But, overall, we 
are seeing a tremendous improvement in railroad safety in this 
Nation.
    In regulatory research efforts, on top of the list is the 
human factors. We are making revisions right now, and have in 
clearance process our human factors rule, which takes railroad 
operating rules, especially those cardinal rules that the 
railroads operate with, and Federalizing those rules. We are 
using pilot projects to reduce human factor-caused accidents 
through observation and analysis of behavior, including close-
call reporting and behavior-based safety; and pilot projects 
such as switch position indicators and positive train control.
    Revisions to the continuous welded rail regulations 
continue to occur because, again, rail is the second most 
important safety area that we need to get through. And then we 
improve the FRA inspection capabilities through the automated 
track inspection cars. And I have a picture of one here just to 
identify it for you, and the number of miles that we can cover. 
By January of this year we will be able to cover more than 
100,000 miles by deploying the fifth of one of those cars.
    Grade crossing and trespasser prevention staff and working 
with our Federal highway and State DOTs to educate, enforce, 
and engineer are the main strategies for reducing highway rail 
grade crossing safety.
    And when we really look at our passenger train occupant 
protection along with how we look at a strategy for reducing 
those things, as we look at hazard elimination first--in other 
words, prevention--and then we look at testing, both the--and 
you are going to see a clip of that in a minute--testing our 
theories and the structural crash worthiness and how occupants 
can be protected.
    If we will go to the next slide, you are going to see here 
two trains. The one on top was the one before the changes were 
made and the one on the bottom was after we incorporated the 
crash energy management into our testing. I think it is a 
pretty significant. And I think maybe you have seen this 
before, but I think looking at this and seeing what really 
happened, we had anti-climbing devices, we have crash energy 
management, and we are looking at the inside, as well, on how 
passengers can be protected. This will be the final piece of 
that.
    I know staff behind me really was sweating this out in 
March because we had a lot of observers in that particular 
second crash after we put the crash energy management in, and 
those changes have been incorporated into the latest 
procurement of railcars in California and also in Florida.
    And then my final slide today--and I know I am a little bit 
over, but it is just a continuation in terms of a local. In 
Landover, Maryland, in cooperation with the Washington 
Metropolitan Transit folks, we have a rollover rig, we call it, 
where we train with fire safety and emergency evacuation so 
that the first responder crews can understand how better to 
mitigate or save lives if the worst does happen.
    Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you, Administrator Boardman.
    Mr. Hamberger, welcome to you, and we look forward to 
hearing from you.
    Mr. Hamberger. Thank you, Mr. Chairman, members of the 
Committee, for the opportunity to address your Committee on the 
singularly most important issue to North America's freight 
railroads, and that is the safety of our employees, our 
customers, and the communities in which we operate.
    Railroads are in the forefront of safety when compared to 
other industries. This has been accomplished through massive 
investments in safety enhancing infrastructure and technology; 
employee training; cooperative efforts with labor, suppliers, 
customers, communities, and the FRA; cutting-edge research and 
development; and a steadfast commitment to applicable laws and 
regulations.
    The overall safety record is excellent, reflecting the 
extraordinary importance railroads place on safety. Since 1980, 
railroads reduced their overall train accident rate by 65 
percent and the rate of employee casualties by 79 percent. In 
2005, in fact, the employee casualty rate was the lowest in 
history. Railroads have lower employee injury rates than other 
modes of transportation and most other major industry groups. 
We also have employee injury rates well below those of most 
European railroads.
    As you just heard, human error constitutes the largest 
category of train accidents: 38 percent between 2001 and 2005. 
Given the extent and complexity of rail operations--the 
railroad factory floor is outdoors and more than 140,000 miles 
long--some rail accidents are bound to occur. And while 
railroads respect and applaud the professionalism and attention 
to safety that rail employees bring every day to their jobs, 
employees will sometimes make mistakes. Railroads share FRA's 
goal of finding ways to make those mistakes as rare as 
possible. While the number of accidents caused by human error 
has risen over the past decade, the rate has stayed relatively 
constant, and in 2005, in fact, it was 53 percent lower than in 
1980.
    In addition, most of the increase in human factor-caused 
accidents over the past decade has been low speed yard 
accidents. The rate of accidents caused by human error 
involving freight trains on main and siding track in 2005 was 
75 percent below the 1980 level and 46 percent below the 1990 
level.
    The railroads agree, of course, that they, rail labor, and 
the FRA must continue to try to reduce the frequency of 
accidents caused by human error, and we support the FRA in its 
rulemaking efforts to address human factor issues. In addition, 
we are cooperating with the FRA and rail labor to develop a 
close-call process suitable for voluntary adoption by 
individual railroads.
    A new technology that will have a significant impact on 
human error accidents are train control systems that can 
prevent accidents by automatically stopping or slowing trains 
before they encounter a dangerous situation. These train 
control technologies could significantly reduce the incidence 
of human error caused train accidents, especially the more 
dangerous and tragic train collisions and derailments.
    Railroads and their employees are also continuing their 
long-standing and varied efforts to gain a better understanding 
of fatigue-related issues and find effective, innovative 
solutions. Scientific research to date suggests that 
flexibility to tailor fatigue management efforts to address 
local circumstances is key to the success of these programs. A 
one-size-fits-all government approach is unlikely to succeed, 
as well as cooperative efforts tailored to individual 
railroads.
    After human error, track problems are indeed the second 
leading cause of accidents, and the rail industry is committed 
to reducing the number of these accidents as well. At a very 
basic level, railroading today is similar to railroading long 
ago; it still consists of steel wheels traveling on steel 
rails. This surface similarity, however, masks a widespread 
application of modern technology and a huge variety of ongoing 
initiatives to research, test, and apply advanced technologies 
to make railroads even safer.
    Much of this new technology, as the Administrator has 
pointed out, has been or is being developed or refined at the 
Transportation Technology Center in Pueblo, Colorado. This 
Committee has had two trips to Pueblo in the past year, and we 
hope that we will have the opportunity to be there with you 
again in the future.
    Many of these technological advances--some of which are 
already in widespread use and some of which are still under 
development--are part of the industry's Advanced Technology 
Safety Initiative, a maintenance system designed to detect and 
report potential safety problems and poorly performing 
equipment before problems occur. On page 10 of my testimony I 
detail many of those research initiatives.
    The industry also supports three affiliated laboratory 
programs at Virginia Tech, Texas A&M University, and the 
University of Illinois. Through these programs, the rail 
industry monitors technological developments outside of our 
industry, evaluating the suitability of these technologies to 
railroads, and then supports that technology toward 
implementation where appropriate.
    It is indeed necessary and appropriate for the FRA to focus 
its efforts on the biggest safety problems. Of course, 
railroads, as I have indicated, already are focused on those 
issues and have strong incentives to improve safety and reduce 
the costs of injury and accidents. They and their employees are 
in the best position to know how to do this. Thus, cooperative 
efforts are far more likely to improve safety than a top-down, 
overly prescriptive approach.
    The rail industry looks forward to working with Congress 
and the FRA, our customers, our employees, and others to ensure 
that the improvement in rail safety continues.
    Thank you for the opportunity to be here, Mr. Chairman.
    Mr. LaTourette. Thank you very much, Mr. Hamberger.
    Mr. Stem, thank you for coming this morning, and we look 
forward to hearing from you.
    Mr. Stem. Chairman LaTourette, Ranking Member Ms. Brown, 
members of the Committee, on behalf of the men and women that 
are operating the trains moving on our Nation's railroads 
today, we want to thank you for giving us the opportunity to 
testify on our priorities for rail safety.
    I work here in the Washington Office as our Alternate 
National Legislative Director. I also have been assigned by 
International President Paul Thompson of the UTU to work with 
FRA to coordinate our activities on the Rail Safety Advisory 
Committee.
    We are FRA's partners working together to improve safety in 
our rail industry. We are thankful for the positive 
relationship that has been developed with Administrator 
Boardman and also Associate Administrator of Safety Jo Strang 
and their staff.
    The most appropriate solution to identified rail safety 
concerns are consensus results produced with FRA, labor, and 
rail management's active participation. With the FRA guidance, 
the RSAC process brings all the stakeholders together to 
address specific concerns and to improve safety through 
practical application of the resolution.
    UTU fully supports this FRA initiative and recognizes the 
fact that this process contributes to improved safety.
    The introduction of Secretary Mineta's FRA Action Plan 
states: ``The railroad industry's overall safety record has 
improved over the last decade and most safety trends are moving 
in the right direction. However, significant train accidents 
continue to occur, and the train accident rate has not shown 
substantive improvement in recent years. Moreover, recent train 
accidents have highlighted specific issues that need prompt 
government and industry attention. . . .''
    While the numbers of ``fender-benders'' and minor incidents 
have decreased, the number of train collisions, train 
derailments, and major events in the rail industry have 
increased in number and frequency. That is a reference to the 
FRA's recent submission of the 11 year Accident Industry 
Summary.
    FRA data reveals that over a three-year period ending in 
December 2005, train collisions increased by more than 42 
percent and employee fatalities were up by 17 percent.
    Moreover, the Washington Post reported a terrorist attack 
on railcars carrying chlorine gas ``could kill or injure tens 
of thousands.'' New York Times reported railroads ``transport 
more than 1.7 million shipments of hazmat every year, including 
100,000 tank cars filled with toxic gases like chlorine and 
anhydrous ammonia.'' A White House homeland security advisor 
said, ``Chemical transport is clearly the greatest 
vulnerability in the Country today.'' Clearly, railroad safety 
is an urgent matter affecting public safety and national 
security.
    Training. It is obvious to UTU this rend in declining rail 
safety is directly related to a failure in the current training 
programs and the rampant fatigue problems throughout our 
industry.
    The lack of appropriate training is the number one safety 
issue facing the rail industry today, and it should be of 
significant and urgent concern to the United States Congress. 
These training deficiencies are not confined just to operating 
employees, but also include train dispatchers, signal 
employees, maintenance of way employees, locomotive repair and 
servicing employees, and track inspectors.
    There was a time when trainmen and yardmen in freight and 
passenger service were naturals for becoming engineers. They 
possessed an impressive working knowledge of the physical 
characteristics of the terrain, in-train forces and operating 
rules and procedures. These veteran operating employees had 
only to become proficient in applying this knowledge to their 
new craft while, at the same time, honing their train handling 
skills. Unfortunately, this is no longer the case.
    As our aging workforce retires, and our railroad business 
increases dramatically, the railroads have delayed hiring 
replacements. As a result, they rush new hires through 
shortened, one size fits all training programs. It is not 
uncommon on any train, anywhere in America, to find an 
inexperienced trainman paired with a brand new engineer. It is 
very unlikely the trainman received training over the territory 
he or she is working on, or was taught the special problems 
that exist and skills required in regions with temperature 
extremes, heavy grades, or complex operating environments.
    Most troubling about this is that it is unlikely either the 
new trainman or new engineer were provided classroom training 
where actual application of the operating rules was taught. 
They needed only to memorize rules, not know how to apply them, 
in order to graduate them. What is more, most veteran employees 
believe that recurrent training in the rail industry has become 
a farce.
    UTU is of the strong opinion that newly hired trainmen 
should not be required to work unsupervised or operate 
locomotives until they are truly experienced in the trainman 
craft. This ensures they have become proficient in their train 
service and have gained needed on the job experience before 
assuming additional demanding duties and responsibilities.
    A one year minimum in train service prior to becoming a 
conductor would improve the quality and competency of railroad 
operating employees, which equates to safer and more efficient 
operation. It also ensures that newly hired employees will have 
approximately two years of practical railroad experience before 
they can be expected to operate locomotives without 
supervision.
    The attraction and retention of qualified candidates for 
employment and their training is a major safety issue for all 
unions in the rail industry. Unfortunately, the rail carriers 
have attempted to make training of new employees an issue 
reserved exclusively for collective bargaining, where the 
carrier's only concern is the cost of the training.
    The large turnover in new railroad operating department 
employees has a direct relationship to the lack of experience 
and proper training in our industry. Many new employees express 
their frustration at being overwhelmed with the level of 
responsibility that they have received with poor training and 
little experience on the job.
    Another FRA initiative, the Switching Operations Fatality 
Analysis, that we commonly refer to as SOFA, found that 
training and experience were critical safety issues.
    Our rail industry is absorbing a record number of new 
employees in every department while operating at maximum 
capacity because of the record levels of rail traffic. UTU has 
attempted to address the inadequate training issues in every 
forum, including the collective bargaining arena, with very 
little progress. The railroads have been reluctant to recognize 
that the adequacy of training is a genuine problem and have not 
addressed this issue with the unions in a meaningful manner. 
They have refused to even allow FRA to offer their expertise in 
training techniques, and have declined labor's offers to 
establish cooperative mentoring programs for the critical 
component of ``On the Job Training.''
    Rail industry will have more than 80,000 new employees in 
the next five years. Unless we can quickly eliminate training 
as a major safety issue, we can only expect this negative trend 
in safety analysis to accelerate.
    Fatigue. Unless a human being knows in advance what time 
they must report to work, they cannot arrange to be rested and 
fit for duty. The railroad industry functions on a 24/7 
schedule with continuous operations from coast to coast. This 
is not an excuse for the current position of the railroads 
holding that their employees do not deserve and are not 
entitled to advance knowledge of the time they must appear for 
their next assignment. Every railroad terminal has an 
information line commonly referred to as a ``lineup'' that is 
intended to advise crews that are subject to call 24/7 
regarding their status. Every railroad has ``problems'' with 
the accuracy of these ``lineups.'' The employees must have 
early and reliable information indicating when they will be 
required to report for duty.
    Even though it is the same company officers, using the same 
company computers and programming that forecast the number of 
trains to be operated, the projected time on duty information 
available to railroad operating employees and reality are 
seldom even close. The data produced by these computers is 
frequently inaccurate by several hours. These are the same 
computers that the railroads are telling you will be used to 
operate two-mile-long freight trains with only one person on 
the train.
    UTU has voluntarily participated in many different forms on 
Fatigue, Work Rest issues, and pilot projects designed to help 
stabilize the work schedules for operating crews. There are a 
few successful Work Rest projects continuing across the 
Country, but these represent no more than 2 percent of the 
affected employees. Railroads have adopted unilateral 
availability policies that set arbitrary guidelines for 
employee work schedules. One railroad availability policy 
states that employees will be available for service 85 percent 
of their time. The average American worker that is expected to 
work 40 hours each week is available for service about 24 
percent of their time.
    The Federal Hours of Service Act states that rail employees 
involved with train operations and signal appliances can only 
work 12 consecutive hours on duty. In our rail industry today, 
20 consecutive hours between reporting for duty and being 
relieved is not unusual, with 14 to 16 hours on duty 
commonplace.
    The rail industry is the only place in the United States 
where 12 hours on duty means 12 hours plus any additional time 
the railroad finds to be convenient. A court case pursued by 
the rail industry created a new definition of the time an 
employee can legally remain on duty, called ``Limbo Time.'' The 
Supreme Court stated that limbo time was neither time on duty 
nor time off duty.
    The practical application of that railroad victory in the 
Supreme Court means that the Hours of Service Law today is 
supplied so that you stop the train at the expiration of your 
12 hours and then sit on the locomotive until it is convenient 
for the railroad to send someone out to bring you to a 
terminal. The employee sitting on the locomotive continue under 
pay, they are expected to protect the train against vandals or 
unauthorized movement, and are prohibited from leaving the 
train in almost every instance by the Operating Rules of the 
company.
    When we hear the railroads discuss fatigue, it becomes 
obvious that the top executives of the industry actually know 
more than labor about the effects of fatigue on safety. On many 
occasions, when confronted with direct questions about the 
safety concern of fatigue, these executives have placed their 
hands over their mouths and exclaimed: ``I am shocked to learn 
that there is gambling in this place!''
    Before the limbo time ruling was implemented industry-wide, 
12 hours on duty actually meant 12 hours on duty for the 
operating crews. Rail management made the necessary 
arrangements to timely relieve the crews as required by the 
Hours of Service Law, and their operations were much more fluid 
because of those decisions.
    When the House of Service Act was implemented for signal 
employees in 1976, it too was a 12-hour law. There is a 
provision in the Act to work signal employees up to an 
additional 4 hours ``... when an 'actual emergency' exists and 
the work of the employee is related to the emergency.'' 
Railroads have slowly, but surely, expanded the criteria for an 
``actual emergency'' so that almost all signal work is 
classified as an emergency. Signal employees routinely work 16-
hour days. The 12-hour law has in effect mutated into a 16-hour 
law. This was never the intent, nor should it be the 
application of the law.
    To credit FRA, a Collision Analysis Working Group, commonly 
referred to as CAWG, was created to analyze more than 50 main 
line collisions, to identify commonalities, and recommend 
changes to prevent future collisions. Rail management, the UTU, 
the Brotherhood of Locomotive Engineers and Trainmen, and the 
FRA were all equal partners in this exercise. This analysis 
obviously showed a direct link to fatigue as a contributing 
factor in many of these collisions and the corresponding loss 
of situational awareness by the crews. The industry 
participated in the analysis as an equal partner.
    The industry also participated in drafting and approved the 
final language contained in the report as an equal partner, and 
afterwards demanded that their officers' names be stricken from 
the final report when senior management learned the involvement 
of fatigue was mentioned in connection with these collisions. I 
am thankful that FRA had the courage to remove the railroad 
officers' names from the report and publish this significant 
work.
    Fatigue in the rail industry has become a major safety 
concern because of the critical shortage of personnel in every 
department caused by intentional and ill-founded hiring 
practices that were promulgated over labor's objections, 
together with implementation of the limbo time ruling. 
Cumulative fatigue and the safety sensitive nature of the 
duties performed by railroad workers is an issue that might 
require Congressional intervention to resolve.
    Mr. LaTourette. Mr. Stem, you are cresting on 14 minutes, 
so, by unanimous consent, your full statement is included in 
the record. I would ask that you sort of wrap up here in the 
next minute or so.
    Mr. Stem. Thank you, Mr. Chairman.
    I would like to mention briefly single person operation. We 
have had many questions about single person operation, and we 
are aware that the industry has briefed virtually every member 
of this Committee. The rail industry is demanding from their 
employees and the Federal Railroad Administration the authority 
to operate trains with only one person in the locomotive. When 
this demand was first made during the current round of national 
negotiations, the industry first provided assurances and 
indicates that the safety of the operation could be authorized 
with one person because of a pending development in positive 
train control.
    When research revealed that system-wide implementation of 
any PTC system was many years and many billions of dollars 
away, the carriers continued with their single person operation 
demands. One railroad even attempted to receive back-door 
approval for such controversial operations by filing a Product 
Safety Plan with FRA that promoted single person operation with 
a waiver request.
    Single person operation of freight trains involves a 
completely different analysis of the rail safety equation and a 
complete reassessment of the overall safety of operations that 
extends far beyond consideration of this specific issue. 
Responsibilities of the railroad to operate safely over public 
crossings, to inspect the moving train at every opportunity, to 
open public crossings quickly when stopped, and to interact 
with emergency responders are issues that are not addressed by 
any PTC system, and they were not designed to do so.
    In summary, historically, each train has been considered as 
a self-contained operating unit that had the capability of 
moving safely in and out of terminals and sidings, and moving 
on main track utilizing a variety of train control system and 
methodologies. Each train was able to set out defective cars en 
route to provide self-inspection and repair for dragging 
equipment, shifted lading, hot journals, broken coupling 
devices, sticking brakes, and, importantly, the ability to 
expeditiously open public grade crossings when necessary. 
Single person operation ignores all of those responsibilities.
    I thank you for the opportunity to testify, Mr. Chairman.
    Mr. LaTourette. Well, Mr. Stem, I thank you for your very 
complete statement this morning.
    Before we begin questioning, I mentioned at the beginning 
of the hearing that our distinguished Ranking Member was stuck 
in traffic. She has now joined us.
    And I will tell you, Ms. Brown, that Mr. Barrow stood in 
for you. No one can ever adequately take your place, but we did 
manage a unanimous consent request to allow all members to put 
their statements and other observations in the record. But as a 
courtesy to you, if you have an opening statement to give, we 
will take that, then we will do questions.
    Ms. Brown. Thank you, Mr. Chairman. First of all, I would 
like the unanimous consent to have the young woman from 
Pennsylvania to sit in on the Committee meeting and ask 
questions.
    Mr. LaTourette. Without objection. It is a pleasure to have 
Ms. Schwartz with us.
    Ms. Brown. Mr. Chairman, let me thank you for holding this 
important hearing.
    I want to begin by expressing my disappointment with the 
fact that the witnesses invited to testify before this 
Subcommittee continue to submit their statement for our review 
well passed the requested deadline. The invitation letter 
clearly states that they are due at least two to three days 
prior to the hearing, but we continue to receive testimony in 
the evening before the hearing, and this doesn't give the staff 
the time to thoroughly review the testimony and prepare the 
member, this member in particular.
    And I know that the Federal Railroad Administration is 
doing what it can to get its statement cleared before the 
Office of Management and Budget in a timely manner, but when it 
comes to the private sector witness, there is no excuse, and I 
hope the Chairman will address this matter.
    In terms of this hearing, the FRA says that human factor 
and track defect account for over 70 percent of all rail 
accidents. Indeed, the National Transportation Safety Board 
determined that the probable cause for the 2005 derailment of 
Norfolk Southern train in Graniteville, South Carolina was the 
failure of the crew to return a main switch line to the normal 
position. The results of the Union Pacific train in Shepard, 
Texas, in 2005 and the derailment of the Canadian Pacific train 
in 2002 was the result of track defects, cracked joints, bars 
and broken rail.
    Prior to this hearing, I reviewed the Department of 
Transportation data on rail safety. It shows that human factors 
and track defects have been the main cause of accidents since 
1975. It concerns me that it took 30 years for the FRA to hone 
in on the two areas, but I am pleased to see that the agency, 
under the leadership of the Administrator at this time, is 
beginning to take action.
    In May 2005, the FRA unveiled the Rail Safety Action Plan. 
I am interested in getting a status report on the action items 
contained in the Plan, as well as an update on FRA's efforts to 
mitigate fatigue.
    I am also interested in FRA's new National Inspection 
program, which wasn't fully implemented until this past March. 
DOT data shows that over the last few years the number of 
inspections conducted by the FRA has declined by 6.3 percent, 
which is a serious concern. I therefore plan to join 
Congressman Oberstar in sending a letter to the DOT Inspector 
General within the next few months to ask him to conduct a full 
audit of FRA Rail Safety Action Plan and the National 
Inspection Plan.
    Mr. Chairman, I want to again thank you for conducting this 
hearing, and the testimony has been very interesting, and I 
have some pointed questions at the proper time.
    Mr. LaTourette. Well, I thank the gentlelady very much. I 
am glad she was able to navigate through the horrible traffic 
here in the District.
    As to the first point, we obviously encourage all of our 
witnesses to get us their testimony in a timely fashion so that 
the staff and members can do thoughtful work in preparing for 
these hearings, so any courtesies that could be extended to us, 
we would appreciate.
    Administrator Boardman, going back to your pie chart that 
talked about the human factors and the track conditions, there 
was also a slice of pie that was 14 percent that was 
miscellaneous. Can you just give the Subcommittee some 
indication of what is included in the miscellaneous category?
    Mr. Boardman. Probably not as good as you would like it at 
this point in time, because I am drawing a blank, but let me 
get some staff here to help. It really is miscellaneous, it is 
obstructions on the track, it is snow, it is the other kinds of 
things that create the problems.
    Mr. LaTourette. OK. And you showed us a picture of I think 
the car was a T-17 car. And if I understood you correctly, you 
say that you are bringing a fifth one on line this year, is 
that----
    Mr. Boardman. It will be out by January. The fourth one 
will be in September, the fifth one in January.
    Mr. LaTourette. I think I have had the privilege of riding 
on a geometry car in Florida, I think. If my memory serves me 
right, it was owned by the Norfolk Southern Railroad--I might 
be wrong about that--and other members of the Subcommittee did 
as well. So aside from your soon to be five T-17 cars, are 
there also geometry cars that are owned and operated by the 
railroads?
    Mr. Boardman. They have some of their own inspection cars 
and they actually have been using the photo technology to put 
on their hi-railers to inspect the rails as well.
    Mr. LaTourette. And one of the railroads uses their own 
equipment as opposed to the FRA T-17 cars. Is that data 
reported to you after they have completed inspection of a set 
of tracks?
    Mr. Boardman. I believe that is correct, yes.
    Mr. LaTourette. OK.
    Mr. Boardman. I will make sure of that and confirm it.
    Mr. LaTourette. In 2005 there was a major fatal accident on 
the Metrolink system in California; 11 people died and 8 of 
those were in the so-called cab car at the front end of the 
train. And my question is--and I think you might have just 
released a report on cab cars, but how do locomotives compare 
to cab cars in terms of risk to passengers and the engineer, 
and what is the FRA's current position on the use of cab cars?
    Mr. Boardman. Well, as you could see in the video clip that 
you saw in our testimony, we have been working very hard to 
reduce the severity of any accident for cab cars with crash 
energy management. So certainly in California that particular 
commuter organization right now is in the lead in making 
changes that were incorporated in the accident that you saw.
    The study itself, as it was released, what we found and 
what was determined--and one of the difficulties here is that 
there--and we are glad of it, frankly--is there are so few of 
those accidents, the data to find that information is very 
difficult. But what we found was that there was not--with the 
kinds of energy that were released in that kind of an accident 
and others, there was not a significant difference of whether 
there was a locomotive in the lead or whether it was a cab car 
or an MU in the lead of that particular accident.
    On other accidents, when there is a huge kinetic energy to 
absorb, then it is unclear as to what would really happen at 
that point in time.
    Mr. LaTourette. OK. And speaking of sort of crashes, I 
didn't have the pleasure of going out and watching that 
collision in March, but it is my understanding that that is 
performed at about 35 miles an hour?
    Mr. Boardman. That is correct.
    Mr. LaTourette. The Acela train goes 150, maybe 110. Is the 
FRA working on survivability studies as well for higher speed 
passenger rail, higher than 35 miles an hour?
    Mr. Boardman. Yes. The note that just got passed to me, it 
is not only the crash energy management, but it is the positive 
train control, especially on the northeast corridor, where you 
have those higher speeds. Communication-based train control has 
been a large factor, a huge factor in the prevention of those 
accidents.
    When you have the high speeds, whether it is on rail or 
whether it is in airplanes or whether it is in automobiles, it 
is very difficult to predict the survivability of passengers 
when the physics that are involved are just huge. So there is a 
much greater emphasis placed on prevention, just like there is 
in Europe, which is their primary concern as well.
    Mr. LaTourette. Thank you.
    Mr. Hamberger, relative to a good portion of Mr. Stem's 
observation, not only from his testimony, but also it is my 
understanding that the Class I railroads are experiencing a 
wave of new hiring, as many of the more experienced employees 
are reaching retirement age. My question to you, has the loss 
of this experienced workforce had a negative impact on safety, 
and can you give us your observations from the AAR's point of 
view?
    Mr. Hamberger. I indeed would be pleased to do so.
    Let me first take my trip to the woodshed. I believe I was 
certainly one of the ones to get my testimony in late last 
evening. I apologize. Not as an excuse, but by way of an 
explanation, this is my fourth hearing in exactly two weeks, so 
we did have trouble getting our own clearance process caught 
up.
    But I think, over the years, we have done a bit better job. 
I apologize both to you, Congresswoman Brown, and to staff, Mr. 
Chairman and everybody else, for being late. I believe we got 
it in last evening. So I apologize.
    Mr. LaTourette. I appreciate that apology, but I would say 
that since there are only three of you up there, we sort of 
figured it was you.
    Mr. Hamberger. Yes. I figured I might as well come clean, 
since it was pretty clean.
    Back to your question, Mr. Chairman. I guess the short 
answer is no, it has not had a deleterious effect on safety, as 
indicated by the fact that in 2005 our accident rate per 
million train miles was less than in 2004 and 2003; and that is 
because of the emphasis on training that we do have.
    And when I testified here exactly two weeks ago on hazmat, 
I submitted for the record at that time the voluminous training 
documents that Norfolk Southern uses for its new employees. In 
fact, they have a new training facility in McDonough, Georgia. 
CSX has a new training facility in Atlanta. Both of those 
facilities include classrooms, state-of-the-art simulators, 
extensive yard track settings with dedicated locomotives and 
cars for live, hands-on learning that complements the computer-
based instruction.
    In addition to simulators and dedicated tracks and 
equipment, BNSF and UP have created partnerships in the west 
with centrally located colleges, among other approaches, to 
advance training on a range of operational jobs.
    So we believe--I guess we just have a basic disagreement. 
We believe that we do provide very extensive, very 
comprehensive training, that that training is continuous, and 
that the results are proven out by the fact that our train 
accident rate is declining. So we believe that we are doing 
what is necessary to get the new employees trained properly and 
sufficiently.
    Mr. LaTourette. I thank you very much.
    Ms. Brown?
    Ms. Brown. Thank you. I guess I will start with Mr. 
Hamberger.
    You said that your accident rates are declining, but the 
seriousness of the accidents have not, and in your testimony 
you indicated that you believe that a lot of the future of rail 
safety lies in improved technology, but human factors 
constantly rank as the to two reasons for train accidents. 
Please tell us what safety practice--not technology--the AAR 
feels needs to be implemented to reduce human factors.
    Mr. Hamberger. Well, I am not sure I can accommodate that 
question because, frankly, what we are working on is 
technology. That is one of the areas where, by both 
supplementing and replacing some of the human activities with 
technology, you then have the ability to eliminate the 
potential for human factor errors.
    But, at the same time, what we are doing, as I just 
mentioned in response to the Chairman's question, enhancing the 
training that I just went through so that the training is 
obviously an important piece, the continuous training, the job 
briefings that go on daily are an important part and, of 
course, working with the FRA and, as Mr. Stem indicated, in a 
consensual way with labor and the FRA through the Rail Safety 
Advisory Committee to come up with different approaches to 
address some of the human factor causes that I think will 
result in a new rule coming out of the FRA this summer.
    Ms. Brown. Mr. Stem, would you like to respond to that? And 
let me tell you your testimony was very interesting, but if we 
had gotten it earlier, a lot of what I said, I could have just 
used yours.
    Mr. Stem. Yes, ma'am. Let me join Mr. Hamberger in the 
woodshed. I also offer our apology. We submitted our testimony 
only slightly before AAR. We were also late, and I will commit 
to you----
    [Laughter.]
    Mr. Stem. I will commit to you that we will do better in 
the future.
    And I would like to comment on Mr. Hamberger's answer. 
There is no argument that the industry has facilities 
available. Training is not just about a physical classroom 
setting. Training is about the curriculum, knowledge transfer, 
technique on teaching new employees the application of the 
rule. It is not about memory work. And you can't teach how to 
operate a train in a classroom. You need mentoring programs, 
you need on the job experience.
    We are trying something new in this industry. When I went 
to work on the railroad, my training was classroom, reading, 
and mainly on the job training. I was restricted in the 
responsibilities that I could take until I had some experience, 
until I had some exposure. Today, we are hiring new employees, 
19, 20, 21 year old kids, and in eight or ten weeks we give 
them a freight train. And the indication that the training 
process has failed is the constant increase not only in the 
severity of the accidents, but also the fact that human factor 
caused accidents is on the rise, not the decline.
    Ms. Brown. Mr. Boardman, let me just ask you one quick 
question. The FRA reviewed its accident investigation 
procedures in 2004 to collect information on employee sleep, 
rest, and evaluation fatigue as a casual factor of accidents. 
Since 2004, what observations or conclusions were reached after 
reviewing the data?
    Mr. Boardman. One of the things we will be doing is 
producing a report on fatigue and a model of that report by 
this fall. That was one of the elements of the Safety Action 
Plan. And I wanted to bring to your attention, both you and the 
Chairman, you asked for a status report on Safety Action Plan. 
I have that to give you after the hearing. So we are working on 
a regular basis with RSAC and others to find a fatiguing model 
that will help railroads in their efforts to reduce that in 
their crews.
    Ms. Brown. And thank you for turning your report in on 
time.
    Mr. Boardman. You are welcome. I was shocked.
    [Laughter.]
    Ms. Brown. Thank you, Mr. Chairman. We are going to have 
another round?
    Mr. LaTourette. We can. I thank the gentlelady very much.
    Coach Osborne.
    Mr. Osborne. Thank you, Mr. Chairman.
    And thank you for being here today, Mr. Boardman. I 
recently had a hearing that indicated that the rail capacity 
crunch in the United States is very real. In your opinion, 
could advanced signal systems, such as positive train control, 
help relieve this congestion and improve safety?
    Mr. Boardman. At the time I wasn't part of that one, that 
is the reason Ed was late over here in terms of that; that was 
over in the Senate, I believe, the capacity hearing. But we 
believe that positive train control is a part of the solution 
to improving capacity because capacity measured in terms of the 
velocity of the trains is important, and we know for a fact 
that it will substantially improve safety.
    Mr. Osborne. All right, thank you for that comment.
    I had a question for Mr. Hamberger. I know that railroads, 
as you mentioned, are experiencing a wave of new hiring as many 
employees reach retirement age. Has this had a negative impact 
on safety, railroad safety? I know you expressed some concern. 
Are there any objective quantifiable measures indicating that 
there is an increased safety hazard because of the influx of 
new employees?
    Mr. Hamberger. Well, it is my data taken from the FRA, at 
least the data that I have, that would indicate that there has 
not been a negative influence, that, in fact, in 2005, the 
accident rate per million train miles was lower than both in 
2004 and 2003. And I think that is a direct result of the 
training that our members put their new employees through and 
the continuous training that every employee goes through.
    I do also take some exception to the common notion 
expressed here earlier that the severity of the accidents has 
increased. Again, my interpretation of the data is that while 
the number has increased, the number of accidents, the train 
accident rate has declined, and that most of the increase has 
increased in yards, where trains are moving relatively slowly, 
where the damage is minor, where injury rates--and, again, in 
2005 our injury rate for our employees was the lowest in 
history.
    So I believe that most of the increase in the number of 
accidents has occurred in the yards, where the employee injury 
rate is much lower because the trains are moving at a much 
slower speed. So I believe that there has been a decline both 
in the rate and in the severity, as I look at the data.
    Mr. Osborne. So you are saying essentially that the quality 
of training is compensating for the fact that we are getting a 
lot of new people with very little experience.
    Mr. Hamberger. Yes, sir.
    Mr. Osborne. OK.
    And then lastly, Mr. Stem, a question. I think, again, in a 
prior hearing we heard testimony that it takes six or seven 
years for a signalman to become fully qualified, and that seems 
like a long time. How long does it take for other crafts in the 
industry to become competent and qualified?
    Mr. Stem. I would say two years for a conductor and a 
little longer for a locomotive engineer. And that is with 
proper training, proper experience, and an opportunity to work 
with more experienced mentoring employees.
    Mr. Osborne. And why does a signalman take so much longer 
than an engineer, for instance?
    Mr. Stem. Signalmen have a much more complicated job than 
learning to work on the train; there are a lot of new relays. 
And I was not aware that the six years in my testimony was at 
issue. They have an apprenticeship program where there is 
training involved. Some of that is collective bargaining 
related, some of that is also regulation related.
    Mr. Osborne. Thank you.
    Mr. Chairman, I yield back.
    Mr. LaTourette. I thank you very much, Congressman Osborne.
    Mr. Barrow.
    Mr. Barrow. Thank you, Mr. Chairman.
    Mr. Boardman, I want to hone in on the subject of training 
for just a second. I want to tell you what my understanding of 
the situation is, and you tell me if my understanding is 
correct. My understanding is that the FRA does not promulgate 
any uniform minimum set of standards that someone has to meet 
in order to be able to have control of a train.
    Instead, the FRA's jurisdiction is limited to requiring 
that the railroads post or file with the FRA what their 
training requirements are. Then the FRA's jurisdiction is 
limited to punishing the railroad, sanctioning them if they 
should violate their own standards. But this allows basically 
any railroad to set whatever standard for training that it 
wants; it is merely required to file those with the FRA. Then 
the FRA's jurisdiction is limited to finding out whether or not 
they follow their own rules.
    Is that correct?
    Mr. Boardman. Well, we certify all engineers, and we can 
disapprove anything that comes in from a railroad on their 
standards.
    Mr. Barrow. Well, let me ask my follow-up question. It is 
my understanding that railroads today--not all of them, and I 
don't think all railroads do this; I think most railroads 
don't. But the railroad has the discretion to file with the FRA 
and the FRA has the discretion to approve certification of a 
person as an engineer to control a train if they merely pass 
the test. If the test is elaborate enough, then just passing a 
written test can be enough to get you behind the wheels of a 
freight train. I understand that is the case today with some 
railroads. Is that true?
    Mr. Boardman. I don't know.
    Mr. Barrow. Well, if it is true--and I understand that it 
is--it is amazing to me that we do not prescribe minimum 
standards for people who are going to have control of freight 
trains----
    Mr. Boardman. That is not true.
    Mr. Barrow. Well, what is true?
    Mr. Boardman. Well, it is not true that they can pass a 
written test and then operate the train. They have to be able 
to control the train, they have to have been out there. That 
was the reason I----
    Mr. Barrow. But what are the minimum standards for that? Do 
you have to have a year?
    Mr. Boardman. We will provide them.
    Mr. Barrow. We have talked about how it used to be a year 
on top of a year, so you had to have at least two years on the 
job training before you could control a railroad, and now I 
understand that is not the case.
    And I want to compare and contrast that with what we do 
with kids driving cars and truck drivers driving trucks. In 
order to get a CDL, in order to operate a truck, you have to 
have--you have to demonstrate--you have to satisfy lots of 
minimum criteria in order to be eligible to drive a truck on 
the highways. If you are a kid, you have to drive with the 
active supervision of a minimally experienced adult for at 
least a year before you can drive a car.
    And my concern is we don't have even those kind of 
standards in place to try and make sure that the good railroads 
that are incurring the cost of that kind of minimum training 
aren't competing at a disadvantage against those that aren't. 
To me, that is unacceptable, and I want to know more on what 
the FRA's position is on minimum standards for not only 
training, but also on the job experience before someone is 
allowed to operate a train on the tracks in this Country. Can 
you get that information for me?
    Mr. Boardman. I understand your request. It will be 
complied with.
    Mr. Barrow. All right. Now I want to ask--switch subjects 
for a second. Grade crossing collisions. I want to ask what 
does the FRA know about the trends that are going on with grade 
crossing collisions that are controlled by active warning 
systems? You know, an active warning system is one that tells 
you when a train is coming, but it also tells you when a train 
ain't coming. It is like a mechanical stand-in for a flagman, 
OK? Do you all know whether or nor the rate of collisions at 
active warning systems is going up or down?
    Mr. Boardman. Talking to staff, I find that it is going 
down. What I can provide for you is a report on the grade 
crossings.
    Mr. Barrow. Something else I would like your report to 
address is the difference between--is the rate or the trend 
line for collisions at grade crossings that are governed by 
active warning systems----
    Mr. Boardman. What would you like that period for, 
Congressman?
    Mr. Barrow. Whatever is a meaningful period of time, over 
the last five years or so. I want to be able to get a 
significant picture as to whether or not there are trends 
emerging here.
    But also I want to know whether or not you all are aware of 
any differences in the rate or incidents of so-called false 
alarms versus delayed activation failures. You know, the two 
types of collisions you can have at a grade crossing that is 
governed by an active warning system is the false alarm; it is 
the little boy crying wolf and everybody can see there ain't no 
train coming and the cars are stacking up, and you have got 
people frustrated out of the obvious fact that the system is 
giving them a false alarm.
    And they go around and, sure enough, it is at that moment 
that the train has been concealed by standing track, the train 
down on the track ends up colliding with somebody at track 
speed. The false alarm causes a lot of incidents. We can blame 
the operator of the car, you know, for not following the 
obviously false alarm.
    But the delayed activation failure is a different creature 
altogether. This is one where the railroad crossing system is 
telling you it is safe to come across, when in fact it is not 
safe. It is not giving you timely warning.
    Are you all aware of the role that using yard switching 
equipment, motion detectors that are OK for yards, for highly 
monitored, high regulated settings like that are being used on 
high-speed tracks, and how the potential for short circuiting 
on those things is creating a whole constellation of delayed 
activation failures? Are you all aware of that?
    Mr. Boardman. I think what I would like to do is have staff 
come over and interview you and make sure that we are going to 
give you the report that you are interested in.
    Mr. Barrow. OK, I am interested in knowing about the 
incidents and the rate of incidents on train lines between 
active warning systems that are----
    Mr. Boardman. I understand. But if that is OK with you, 
would that be OK?
    Mr. Barrow. Yes, sir, that would be fine.
    Mr. Boardman. Thank you.
    Mr. Barrow. Thank you, Mr. Chairman.
    Mr. LaTourette. I thank you, Mr. Barrow.
    Before going to our guest member, we are going to go to a 
standing member of the Committee, Mr. Boswell.
    Mr. Boswell. Thank you, Mr. Chairman. I think I will yield 
some time to Mr. Barrow. I don't believe he was quite finished.
    Mr. Barrow. I thank Mr. Boswell. I am not going to trespass 
on anybody's time anymore, but I thank the gentleman from Iowa.
    Mr. Boswell. Well, you had your opportunity. Then I will 
yield some time to the Minority Chairperson.
    Ms. Brown. Well, I would yield. We are going to have 
another round.
    Mr. Boswell. OK.
    Well, thank you, Mr. Chairman. I appreciate the hearing we 
are having today. I think it is productive, and appreciate your 
doing it, but to move things along, I am going to yield back my 
time.
    Mr. LaTourette. I thank you very much.
    Ms. Schwartz, we want to welcome you and hope that as a 
result of your experience today, you want to join us here on 
the Subcommittee in future Congresses. I now recognize you for 
five minutes.
    Ms. Schwartz. Thank you, Mr. Chairman. Thank you for being 
so gracious about letting me join you this morning.
    I come to ask a series of specific questions about an issue 
that was brought to my attention by several of my constituents. 
Actually, it was also about rail crossings, and in particular 
about the use of horns, train horns, and how they affect 
particularly suburban areas. And my district is primarily an 
urban-suburban area, and this is a particular suburban area 
that is fairly densely populated, and it has a regional rail 
line that goes through and there are barriers, physical 
barriers and flashing lights.
    But I understand that there have been some significant 
changes as of a year ago in the rules applied to being able to 
make some changes of the way train horns are used at these 
public crossings and the opportunity for alternative safety 
measures that would eliminate the need for the horns.
    So I think these questions are primarily for Mr. Boardman, 
but I really also am concerned about several issues. I am going 
to ask a couple questions, and there may be others. But I did 
want to particularly know whether in fact, in the year's 
experience, how have you and the FRA worked with local 
communities to have them understand what alternative safety 
measures exist, which ones work the best, what are the costs 
involved in doing that so they can--do we expect every local 
community in this Country to be doing their own independent 
analysis of cost-benefit on this, or can you be helpful in 
making those determinations?
    It seems to me that this particular community is concerned 
about the expense and about what ideas are practical. And they 
were referring to the Chicago study, where there was a major 
waiver for 46 percent of all these crossings are there, and yet 
the rest of the Country is struggling with should they try to 
apply for an exemption. What are their alternatives in terms of 
safety measures that they could implement, what are the costs 
involved in that, and of course, our concerns about safety and 
reducing accidents?
    But I do have constituents who are fairly outraged about 
the fact that they have to deal with this on such a specific 
rail crossing by rail crossing. And what help can be offered by 
your administration in helping local communities be able to 
make the right kind of judgments and analysis on this?
    So let me just start there, as to what kind of experience 
you have had in the last year, whether in fact it has improved 
safety when we have gone to some of these alternative safety 
measures and whether in fact they have been effective. And, if 
so, are you promoting that elsewhere in this Country so that we 
don't have to start from ground zero every time a community is 
dealing with this issue?
    Mr. Boardman. Congresswoman, we have got about 200 
communities that we have worked with and improved their quiet 
zones across the Country, and we are willing to go and work 
with any community. We have a calculator that we assist folks 
both on our Web site and will assist any community in 
determining what their risks are and what it would cost, and 
how they might move forward on reducing the risks at their 
crossings so they could qualify for a quiet zone.
    Ms. Schwartz. That has not been my office's experience. It 
has been really months--now, I don't know what you consider 
available, but it has been quite a few months for us to even 
schedule a meeting with your office, and the local community 
has had an even more difficult time. They asked us to intervene 
to try and get your attention on this, and that seems to me 
unacceptable, to just take months and month. And you have a few 
constituents who are making quite a bit of noise themselves, 
but, you know, they are really--I think it needs to be----
    Mr. Boardman. It is unacceptable if we are not responding 
to your offer.
    Ms. Schwartz. Right. We have just finally gotten a meeting 
yesterday, so maybe it had to do with this hearing. So thank 
you to the Chairman for having this hearing. But it shouldn't 
take that. It shouldn't take my saying I am going to come to a 
hearing to ask you a question publicly to get the 
administration to respond.
    And, again, I think these are not easy decisions to make 
locally, you know, what are the expenses locally that should be 
incurred; what is the best technology used. I hope there are 
new technologies coming online to provide this kind of safety. 
And, again, the notion of certain kind of standards that can 
then be applied in a much more proactive way, rather than each 
and every community--again, hundreds of communities, maybe 
thousands of communities--across this Country having to deal 
with the same issue.
    So I would say if you want to get back to me with this, but 
I would be interested to know what effect it has had on safety, 
whether the experience you have had with quiet zones and 
whether these new safety measures have been as effective, and 
what are you doing to more aggressively sort of promote that as 
an option in communities that maybe used to be much less dense, 
that are not actually quite dense and it is affecting far more 
people than the notion was. These are really very densely 
populated suburban, almost urban, area.
    So if you could get back to me on some of that, or through 
the Chairman, if that is appropriate, I would be very 
interested in hearing more about your experience in this last 
year and helping our communities be able to make these 
decisions.
    Mr. Boardman. Yes, ma'am.
    Ms. Schwartz. And I look forward to working more 
specifically in the specific issue in my district, and 
appreciate the opportunity to raise the issue. It may be true 
for other members of this Committee, other members of Congress. 
So with that, Mr. Chairman, thank you very much for the 
opportunity.
    Mr. LaTourette. I thank the gentlelady for her questions 
and for coming. We had a hearing, I think it was last year, on 
the FRA's whistle policy. And at least in the opinion of the 
Chair, they made it worse by, and I think I made the comment, 
Mr. Bachus was here at that hearing, that if I owned a 
railroad, I would have blown the whistle, based upon that new 
regulation, from one end of your town to the next because of 
the liability concerns that I saw on that.
    But I would direct you to Congressman Kucinich in the west 
end of Cleveland, Ohio, who has had a great deal of experience 
particularly with Norfolk Southern Railroad and quiet zones. 
You might want to talk to Congressman Kucinich, because he is 
pretty up on that.
    We will have just a short second round of questions just to 
clean up, if there are additional questions, and I will begin.
    Mr. Barrow asked about active grade crossings, 
Administrator Boardman, and this is something that is of 
interest to me, so I am anxious to look at whatever data you 
provide, because I find now, with the soundproofing of cars--I 
passed somebody the other day that was talking on a cell phone, 
was BlackBerrying, and was smoking a cigarette in an SUV with 
the windows rolled up.
    And the way that they are soundproofing cars, and also with 
the aging of our population, we have people that are getting 
older that are driving, it seems to me that the age of just the 
crossbar needs to give way to things that just don't have 
sound, but you need to have sight. I think it needs to look 
like a Ferris wheel to get somebody's attention that is doing 
all the multitasking when they are supposed to be driving.
    Is there a move or a bias within the FRA to encourage more 
of these active crossing standards and signalization?
    Mr. Boardman. If you will take this in the manner that it 
is meant, we could increase the number of horn decibels. No, I 
am kidding, really.
    [Laughter.]
    Mr. LaTourette. You already did that.
    Mr. Boardman. I understand, based on your previous comment.
    We are working on what we might be able to do differently 
on not only active, but passive grade crossings in terms of 
what--we have experimented in what we call a sealed corridor in 
North Carolina. We are working in California to try to make 
improvements on how we might be able to show folks--and we are 
finding even in amazing videos that people still go around 
gates that are clearly four-quadrant gates that are covering 
the entire--both lanes of traffic, with even, in some cases, a 
barrier in the center. So we do have people that are 
distracted, substantially distracted, whether it is by their 
radio or their BlackBerry or whatever it is that they are 
using, and understand that that is a difficulty.
    We are beginning a new study especially working with 
private grade crossings just this next year to try to make some 
improvements in that area, so any thoughts that members have, 
or others, on how we might be able to make those improvements, 
we can incorporate that.
    Mr. LaTourette. I appreciate that very much. You know, when 
we were doing some of the whistle ban or quiet zone work in 
Cleveland, we saw some models of some of these four-quadrant 
gates that come up with the plastic fence--it looks like what 
they used to carry Shamu around from aquarium to aquarium--but, 
still, people will figure out a way to get through that. If 
they are intent on beating the train, they are going to get 
through no matter how much we fortify the crossing.
    Mr. Stem, my last question is to you, and I just want the 
record to be clear, because I fully understand your position, 
and you and Mr. Hamberger are at odds relative to the level of 
training that is currently going on. The AAR presents one view; 
you present another. You do give a picture of the railroads 
hiring people off the street, basically--and I don't know if 
these are Mr. Barrow's words exactly--but then basically giving 
them a train after eight to ten weeks.
    But I thought I also heard you, in your statement, and I 
know I read in your statement that you feel--and I don't think 
that I disagree with this point--that people who have been 
around trains in other crafts perhaps are better situated 
because they already have this. Is it your testimony that the 
major railroads in this Country are preventing someone who is 
employed in another craft already from getting into the program 
to become an engineer or to become a conductor?
    Mr. Stem. No, sir.
    Mr. LaTourette. OK.
    Mr. Stem. Railroads are still attempting to utilize that 
experience. The problem is that they are so critically short of 
people and have failed to hire timely, to the point that they 
are now taking trainmen with three or four months service and 
promoting them, sending them to locomotive engineer school. And 
Mr. Barrow was correct, with one minor exception. There are 
territorial qualifications and there are on the job 
requirements to get a locomotive engineer certification, but 
today, this day, we still have three railroads in this Country 
that are insisting, over FRA's objections, that they can take a 
new employee, 21-year-old kid, send him to school and qualify 
him to work his first day as a remote control operator. He is 
not only operating a train with a form of engineer 
certification, but his first day on the job he has a box hung 
around his neck switching as a remote control operator, when he 
doesn't--when he barely even knows how to couple the cars 
together.
    So there is no conflict between Mr. Hamberger's position 
and mine on the facility. The conflict is the curriculum.
    Mr. LaTourette. And, Mr. Hamberger, I will ask you for your 
observations in a minute. That same trip when I rode the 
geometry car down in Florida, I also was given the ability to 
remote control a locomotive, and I couldn't do it on my first 
day on the job, but maybe others are more experienced than I 
am.
    Mr. Hamberger, is there some comment you want to make about 
that observation?
    Mr. Hamberger. Yes. I would not want the Committee to 
reason inductively from the comment here on RCL because, in 
fact, harking back to our call for consensus activity in this 
area under the guidance of Mr. Boardman, I believe there is a 
meeting on July 25th among the FRA, the major freight 
railroads, and the UTU to address that very specific issue of 
whether or not the training protocols in place right now for 
remote control locomotives are adequate and, if not, what 
additional training needs to be accomplished for that very 
specific issue.
    I would also for the record, to answer your questions with 
respect to grade crossing collisions, it is my understanding 
that the grade crossing collision rate is down 4 percent in 
2005 versus 2004, and I would be remiss if I did not thank you 
and Congresswoman Brown for your leadership last year in the 
SAFETEA-LU bill for increasing the amount of money available to 
communities under the Section 130 Grade Crossing Program, which 
has proven enormously successful as a program over the years 
and, thanks to your leadership, now will have more resources to 
put additional active warning devices and perhaps even close 
some of these grade crossings.
    Mr. LaTourette. Thank you, Mr. Hamberger.
    Ms. Brown.
    Ms. Brown. Mr. Chairman, I just want to note that I also 
drove the train, but it was a TGV from London to Paris, and one 
of the things about that train, the human technology, as long 
as you have your hands on the wheel, it is fine, but if you 
take it off for so many seconds, the whole train shuts down.
    Mr. LaTourette. If the gentlelady will yield, I think the 
last time I rode that train--that isn't why it takes eight 
hours to get from London----
    [Laughter.]
    Mr. LaTourette. It was supposed to take two and it took us 
eight. You weren't driving, were you?
    [Laughter.]
    Ms. Brown. Now, I just want you to know recently I met with 
the transportation people on the train, and it has really 
improved, the system, from the London to Paris portion, and the 
English part of it has improved because they have invested 
additional monies in rail passenger trains, something that 
seems to be fleeting here in this Country.
    I have a question to ask each of the participants, and then 
I will get back to the script.
    If you look around this area today, and I know I was a few 
minutes late, but I was late because the traffic is just it is 
almost shut down because of the natural disaster that has been 
going on, just natural rain. I keep worrying about what could 
happen to the system if we had some element of an enemy 
terrorist that had done something to the system, and what are 
we doing and what are we not doing to improve the freight 
system safety in this Country, and particularly around this 
area? I am very concerned about the amount of monies that we 
put into the system as far as safety is concerned, from the 
Federal level and also from the private partner level.
    Mr. Boardman. I hope the terrorists can't make it rain like 
this in all cases, because certainly it is very hard when you 
get the tunnels flooded or when you--even whether it is for the 
automobiles or whatever mode of transportation. So that was 
part of the difficulty here in the District. I think a large 
part of the traffic that we are seeing here today is both the 
streets that are closed and the question in people's minds 
about whether all the public transportation systems are 
operating. In the case of the VRE it is not because of some of 
the washouts that have occurred and difficulties that they have 
had. Most of the rest of the public transit system are back up 
and running. The Amtrak system and the Metro system seem to be 
back.
    I think that one of the keys here, again, when you look at 
what our responsibility is in terms of safety and how we 
interact with TSA, DHS on providing security is to continue to 
look at what the hazards are that are out there, what kinds of 
things can shut down our system, that can create problems, and 
begin to look for mitigations and how we can best address those 
things, whether it is with contingency or backup plans or with 
other methods for response.
    You can't prevent everything all the time just like you 
can't prevent having 10 inches of rain in a matter of a two-day 
period of time in Washington, D.C., which is probably close to 
20 percent of the rain that it gets for the year. But the 
security that we need for, and I think Jim Stem would agree 
with this as well, is a continuing of drilling and training and 
recurrent training that is necessary so people know what to do 
in the cases that we have that difficulty.
    And I think that is at least off the top of my head answer 
for you today, Ranking Member Brown, on how we might be able to 
address that.
    Ms. Brown. But from what I hear from Mr. Stem, the training 
and retraining he feels is not taking place.
    Mr. Boardman. I think specific to the procedures of 
security and how you would respond to these things is a little 
bit different than what his particular view was, but certainly 
is an element of what he is interested in.
    Mr. Hamberger. Congresswoman Brown, you have been kind 
enough to allow us to come in and brief you on our security 
plan, but just for the record--and let me remind you that right 
after 9/11 the industry got together and put together a four-
tiered alert plan based very much on intelligence, and we have 
someone sitting 24 hours a day, 7 days a week at the 
intelligence center of the--I think it is called the TSOC of 
the Department of Homeland Security, and we have identified our 
major critical assets. So we are in constant contact with the 
intelligence center, with the National Joint Terrorism Task 
Force at the FBI, with the 54 regional offices around the 
Country of the National Joint Terrorism Task Force of the FBI.
    With respect to training, we have just submitted to FRA and 
TSA, about a month ago, I believe, a new training module; it is 
actually four videos developed by Rutgers University for all 
types of employees, all classes and crafts of employees 
specifically geared toward security.
    Finally, here in the District of Columbia, you asked about, 
as you know, CSX has voluntarily offered to reroute hazardous 
materials, that is, toxic-by-inhalation hazardous materials 
loaded cars off the north-south route coming through the city 
while it works with DHS to put up a virtual fence, spending 
money for intrusion detection devices and actually using D.C. 
as a model for corridors that carry hazardous materials.
    And, finally, as you will recall, I hope, from two weeks 
ago my testimony with respect to hazardous materials, we are 
moving aggressively in trying to improve the integrity of the 
tank car, but we do believe that it is imperative for Congress 
to take a look at, one, capping our liability, because we have 
a common carrier obligation to move these materials; and, two, 
encouraging in any way possible the chemical industry and their 
customers to develop a substitute product for the toxic-by-
inhalation materials.
    And the example right here in Washington, D.C. area is the 
Blue Plains Water Treatment Plant, which used to take a tank 
car full of liquid chlorine. It now gets, I believe, two 
truckloads of chlorine bleach in place of that. But the 
reduction in risk to the community is enormous. So I think, 
long-term, that is somewhere where some leadership is needed 
coming out of Congress.
    Mr. Stem. Thank you, Ms. Brown, for the question, and I 
would like to comment that, from the position of the unions, we 
want to keep the conversation and discussion about on the job 
safety separate from security. While most of my comments were 
designated on training for new employees and recurrent training 
for existing employees about how to be safe at work, how to 
prevent injuries, how to prevent collisions, how to maintain 
situational awareness, my testimony also comments on security.
    While we hear a lot of rhetoric from the industry and from 
TSA about worker training on security, the unions themselves 
have done more training on security for our members than the 
industry. The industry has failed in their attempt to educate 
workers on what they expect them to do if they encounter a 
terrorism event. We have operating rules on every railroad 
today that require employees to notify the proper authority if 
they see something unusual, and we have discussed that with our 
members, we have put that in many of our publications to 
encourage that, but we are very frustrated about no security 
training.
    Ms. Brown. Just one brief follow-up. You mentioned the 
switchman, and I am very familiar with that particular position 
because my brother is one, he has been one for 30 years. How 
much training did you say a switchman is supposed to have 
before they are operational, more than the conductor?
    Mr. Stem. When your brother went to work, he was restricted 
for more than a year to working only as a switchman in a 
position with very little responsibility for people other than 
himself. After he had been there a year, he was then put in 
line for additional training as a supervisor, which is the 
conductor. Today, every new employee that goes to work on the 
railroad is a conduct the first day he works.
    And on CSX we just had an event where a conductor that had 
been working less than 10 days could not even look at a train 
and tell whether or not it was clear of the main track. He 
actually gave up a DTC block authority that caused a collision.
    So training of new employees and restricting their 
responsibility for a given period of time is proven traditional 
technique that works, and that is something that we are not 
doing.
    Mr. Hamberger did mention that FRA has been able to get all 
of the parties together on July the 25th, and I can tell you 
that the leadership of our organization is thrilled, very 
enthusiastic about that opportunity. We think FRA has expertise 
in training, we think FRA should have a place in this 
conversation, and our organization is hoping we can move that 
away from the collective bargaining arena and deal with 
training only as a safety issue.
    Ms. Brown. Just one last question, Mr. Chairman. And I have 
heard this from the field, and it is one of my questions.
    Please discuss the railroad proposals to reduce the crews 
on trains from two persons to one person and what impact would 
this have on safety. And I would like all three of you to 
answer that question, because I have heard a lot of discussions 
about it.
    Mr. Boardman. Then I would like to go first, since I think 
it is really a discussion between those two guys.
    Ms. Brown. Yes, sir.
    Mr. Boardman. And the reason I say that is it is really a 
labor management issue. We don't have rules that deal with the 
number of people on the train crew.
    Ms. Brown. You don't think it is a safety issue?
    Mr. Boardman. It is a safety issue from the standpoint of 
us looking at the Product Safety Plan that was submitted. The 
particular reduction in crew was withdrawn from that Product 
Safety Plan. But the real issue here is a decision or a 
discussion between and among the employees and management.
    We would need to understand from the industry what they 
would do to reduce risk and how they would manage their safety 
program with only one crew member, not so much from the 
standpoint of how many people are on the train, but, rather, 
particular areas of our interest of making sure that a train 
was operated safely.
    Ms. Brown. Mr. Hamberger?
    Mr. Hamberger. Congresswoman Brown, let me emphasize that 
my response is not being given on behalf of all members of the 
Association of American Railroads. There is a subset of that 
group called the National Rail Labor Conference, which consists 
of five Class I railroads, who are engaged in collective 
handling, national handling with the unions, and so it is those 
five railroads who have, in the Section 6 notice pursuant to 
the Railway Labor Act, given notice to the operating crafts 
that they would like to move to a one-person crew.
    It is clear from the railroad position, those five 
railroads, that that would be done only if, and only on those 
roads and only in those corridors where a train control 
technology has been implemented, and right now the one that is 
in test in Illinois--ETMS is the acronym, Electronic Train 
Management System--that BNSF has--Union Pacific is also going 
in that direction; Norfolk Southern has its own train control 
system that has certain additional capabilities and CSX also 
has its own CBTM approach, all of which have the same 
capability. That capability is to stop the train before it 
exceeds its authority. And what that means is it will stop the 
train before it runs the red light, and if it exceeds its speed 
authority, it warns the engineer and then will stop the train.
    So the technology would take away the opportunity for 
collisions on the main line because the technology would stop 
the train before--so if every car or every truck had this 
technology, we would have no collections at the intersections 
because the authority of the automobile, the truck would stop 
at the red light.
    This is also being--BNSF is going to be implementing it now 
on a second route in Texas, I believe it is.
    The plan would be to have additional employees--I think the 
operating phrase right now is a utility employee--who would be 
available to assist in those rare occasions when there is need 
for assistance to the engineer. But the idea is that with this 
technology safety would actually be improved, not hindered.
    And I would point out that Amtrak runs its long distance 
trains with one person in the cab, and we have done a great of 
research around the would where one-person cab operations are 
commonplace, specifically springs to mind Australia and New 
Zealand, where they have found that, in fact, safety has been 
enhanced; and they don't even have the new train control 
technology.
    So we believe, or the five railroads believe that the new 
train control technology would enhance safety, not be a 
derogation of safety.
    Mr. Stem. If I may comment, Mr. Hamberger--dodging the 
question. Single-person operation is not about positive train 
control. Positive train control was designed to deal with the 
loss of situational awareness by the operating crew. And my 
testimony went on about fatigue and training. That is really 
the basis of the loss of situational awareness. ETMS and every 
other positive train control system that is under development 
today was designed to complement the existing two-person 
operating crew.
    There are some things that you cannot replace with 
technology. You cannot get the positive train control system to 
set out a defective car that has got a hot drone or make a 
running repair, or to go back and open a public crossing when 
the train that you are on has been delayed or the train in 
front of you has been delayed. So this debate is really about 
safety of the crew, it is about safety of the public.
    Single-person operation and positive train control were 
discussed with Mr. Boardman and Secretary Mineta. Mr. Mineta 
took his hand and he made a wall, and his exact comment, when 
asked that question that you asked to Mr. Hamberger, was these 
two issues must be bifurcated, they must be separate; they are 
not the same issue. So when we are ready to talk about single-
person operation, Mr. Hamberger pointed out to you that Amtrak 
has a single engineer in the cab. But it is not single-person 
operation----
    Ms. Brown. Right. And that is under certain circumstances 
in some certain areas. I understand that.
    Mr. Stem. Well, if something happens to the train, they 
have two crew members that are in the train that are in 
constant communication with the locomotive engineer that can 
inspect the train, that can provide service, that can meet with 
the emergency responders when they need to.
    What single-person operation envisions is a train hitting 
an automobile on a grade crossing and carrying it a mile down 
the track, and then making the community wait an hour or more 
to get someone else there to interact with the emergency 
responder. So when we talk about single-person operation, there 
is a lot more involved than just safety of the employees. 
Safety of the community, the traditional responsibilities of 
the operating crew to the community, opening grade crossings, 
setting out defective cars, protecting their train, and meeting 
with emergency responders are just the tip of the iceberg that 
would be involved in that conversation.
    Ms. Brown. Thank you, Mr. Chairman. This has certainly been 
a stimulating conversation today, and I have some written 
questions that I will submit. Thank you for holding this 
hearing.
    Mr. LaTourette. Well, I thank the gentlelady very much, and 
I think, as I indicated at the beginning of the hearing, it is 
the Chair's intention to have an additional hearing in July 
talking about the human factors aspect of this that 
Administrator Boardman has now indicated are 38 percent, and I 
hope that what we get into at that time are issues of fatigue 
and limbo time and some of the other things that have been 
brought up at this hearing.
    I want to thank all of you for----
    Mr. Hamberger. Do you have a date for that, Mr. Chairman? I 
would like to get my testimony in on time.
    [Laughter.]
    Mr. LaTourette. Well, I was going to say that the star 
today is Mr. Boardman, and Mr. Boardman, based only on your 
getting your statement in on time, apparently. If you seek to 
become the new Secretary of Transportation, you will have my 
support, and I am happy to promote you in that regard.
    [Laughter.]
    Mr. LaTourette. I want to thank all of you for coming.
    Ms. Brown. Promise to keep coming back visiting.
    Mr. LaTourette. He will keep coming back.
    I want to thank the members for participating, and we are 
adjourned. Thank you very much.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0654.001
    
    [GRAPHIC] [TIFF OMITTED] T0654.002
    
    [GRAPHIC] [TIFF OMITTED] T0654.003
    
    [GRAPHIC] [TIFF OMITTED] T0654.004
    
    [GRAPHIC] [TIFF OMITTED] T0654.005
    
    [GRAPHIC] [TIFF OMITTED] T0654.006
    
    [GRAPHIC] [TIFF OMITTED] T0654.007
    
    [GRAPHIC] [TIFF OMITTED] T0654.008
    
    [GRAPHIC] [TIFF OMITTED] T0654.009
    
    [GRAPHIC] [TIFF OMITTED] T0654.010
    
    [GRAPHIC] [TIFF OMITTED] T0654.011
    
    [GRAPHIC] [TIFF OMITTED] T0654.012
    
    [GRAPHIC] [TIFF OMITTED] T0654.013
    
    [GRAPHIC] [TIFF OMITTED] T0654.014
    
    [GRAPHIC] [TIFF OMITTED] T0654.015
    
    [GRAPHIC] [TIFF OMITTED] T0654.016
    
    [GRAPHIC] [TIFF OMITTED] T0654.017
    
    [GRAPHIC] [TIFF OMITTED] T0654.018
    
    [GRAPHIC] [TIFF OMITTED] T0654.019
    
    [GRAPHIC] [TIFF OMITTED] T0654.020
    
    [GRAPHIC] [TIFF OMITTED] T0654.021
    
    [GRAPHIC] [TIFF OMITTED] T0654.022
    
    [GRAPHIC] [TIFF OMITTED] T0654.023
    
    [GRAPHIC] [TIFF OMITTED] T0654.024
    
    [GRAPHIC] [TIFF OMITTED] T0654.025
    
    [GRAPHIC] [TIFF OMITTED] T0654.026
    
    [GRAPHIC] [TIFF OMITTED] T0654.027
    
    [GRAPHIC] [TIFF OMITTED] T0654.028
    
    [GRAPHIC] [TIFF OMITTED] T0654.029
    
    [GRAPHIC] [TIFF OMITTED] T0654.030
    
    [GRAPHIC] [TIFF OMITTED] T0654.031
    
    [GRAPHIC] [TIFF OMITTED] T0654.032
    
    [GRAPHIC] [TIFF OMITTED] T0654.033
    
    [GRAPHIC] [TIFF OMITTED] T0654.034
    
    [GRAPHIC] [TIFF OMITTED] T0654.035
    
    [GRAPHIC] [TIFF OMITTED] T0654.036
    
    [GRAPHIC] [TIFF OMITTED] T0654.037
    
    [GRAPHIC] [TIFF OMITTED] T0654.038
    
    [GRAPHIC] [TIFF OMITTED] T0654.039
    
    [GRAPHIC] [TIFF OMITTED] T0654.040
    
    [GRAPHIC] [TIFF OMITTED] T0654.041
    
    [GRAPHIC] [TIFF OMITTED] T0654.042
    
    [GRAPHIC] [TIFF OMITTED] T0654.043
    
    [GRAPHIC] [TIFF OMITTED] T0654.044
    
    [GRAPHIC] [TIFF OMITTED] T0654.045
    
    [GRAPHIC] [TIFF OMITTED] T0654.046
    
    [GRAPHIC] [TIFF OMITTED] T0654.047
    
    [GRAPHIC] [TIFF OMITTED] T0654.048
    
    [GRAPHIC] [TIFF OMITTED] T0654.049
    
    [GRAPHIC] [TIFF OMITTED] T0654.050
    
    [GRAPHIC] [TIFF OMITTED] T0654.051
    
    [GRAPHIC] [TIFF OMITTED] T0654.052
    
    [GRAPHIC] [TIFF OMITTED] T0654.053
    
    [GRAPHIC] [TIFF OMITTED] T0654.054
    
    [GRAPHIC] [TIFF OMITTED] T0654.055
    
    [GRAPHIC] [TIFF OMITTED] T0654.056
    
    [GRAPHIC] [TIFF OMITTED] T0654.057
    
    [GRAPHIC] [TIFF OMITTED] T0654.058
    
                                    

</pre></body></html>
